                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 13-02892-217




                Healthcare Inspection 


    Alleged Mismanagement in the 

  Cardiac Catheterization Laboratory 

   VA Maryland Health Care System 

         Baltimore, Maryland 





July 15, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
    Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations regarding the cardiac catheterization laboratory
(CCL) at the Baltimore VA Medical Center (facility), Baltimore, MD. The allegations
related to mismanagement of CCL patient emergencies and CCL staffing.

We did not substantiate the allegation that a patient died because CCL staffing was
insufficient to perform an urgent case and leadership delayed transferring the patient to
the University of Maryland medical center. The patient’s providers, in consultation with
the patient’s family, decided not to perform an urgent catheterization because of the
patient’s unstable status, not because of CCL staffing or other administrative
considerations.

We did not substantiate that the CCL nurse manager, intensive care unit (ICU) nurses,
and Anesthesia Service ignored CCL staff requests for help during a cardiac
emergency. We found no documentation of CCL staff calling a code blue in the
patient’s case other than in an ICU nurse’s note. Staff we interviewed reported that they
sometimes encountered delays in response for code blue and anesthesia assistance,
but the nurse manager and ICU staff generally responded timely to CCL staff’s requests
for help.

We did substantiate that CCL staff were correctly told not to call the rapid response
team for help. The rapid response team is limited to responding to inpatient situations
only, and the CCL is an outpatient clinic.

We did not substantiate that the facility did not follow “standard of care requirements”
since there are no definitive national or VHA standards for minimal staffing of the CCL.
However, we found that the facility did not consistently meet national and local policy
requirements for staffing during CCL procedures involving moderate sedation. Changes
implemented at the facility in April 2013 required two registered nurses for all CCL
procedures. We did not substantiate that nurse managers mismanaged or ignored
requests for additional staff coverage in the CCL. The facility acknowledged ongoing
efforts to evaluate the cost-benefit of CCL in-house operations because of low volume
of procedures in the CCL.

Incidental to our inspection, we found that staff were unclear about the roles of the code
blue and rapid response teams, as well as the process for obtaining anesthesiologist
assistance in the event of an emergency in the CCL.

We recommended that the System Director ensure that:

   Nurse staffing is appropriate for the volume and types of procedures performed in
    the cardiac catheterization laboratory and that the requisite nurse competencies are
    maintained.




VA Office of Inspector General                                                                    i
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


	 The policies and procedures regarding the rapid response team, code blue team,
   and Anesthesia Services are updated as needed to reflect desired practices for
   managing cardiac catheterization laboratory emergencies.

	 The staff receive training on updated policies and procedures regarding the rapid
   response, code blue team and Anesthesia Services.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes B and C,
pages 14–17 for the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                           Healthcare Inspections




VA Office of Inspector General                                                                   ii
    Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD



                                              Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to allegations regarding the cardiac catheterization laboratory
(CCL) at the Baltimore VA Medical Center (facility), Baltimore, MD. The purpose of the
review was to determine if the allegations had merit.

                                          Background 

Facility Profile. The VA Maryland Health Care System (system) consists of three
campuses—the Baltimore VA Medical Center, the Perry Point VA Medical Center, and
the Loch Raven VA Community Living & Rehabilitation Center—and six community
based outpatient clinics. The system has affiliations with the University of Maryland
School of Medicine (University) and other local colleges and universities and is part of
Veterans Integrated Service Network (VISN) 5. The facility has 137 beds and provides
a range of acute medical, surgical, specialty, and outpatient services.

Cardiac Catheterization.               The American Heart Association describes cardiac
catheterization as follows.

        Cardiac catheterization (cardiac cath or heart cath) is a procedure to
        examine how well [the] heart is working. A thin, hollow tube called a
        catheter is inserted into a large blood vessel that leads to [the] heart…
        The procedure is done in a hospital cardiac catheterization (cath) lab.
        Before the cath procedure, a nurse will put an IV (intravenous) line into a
        vein in [the] arm so [the patient] can get medicine (sedative) to
        help…relax, but…be awake and able to follow instructions during the
        procedure…1

Using special x-ray machines and other equipment, CCL staff can perform several
technical procedures, including:

        	 Angiography, which involves injection of a dye that allows blood
           vessels to be seen on X-rays.
        	 Ventriculography, a test to assess how well blood is flowing through
           the heart’s chambers.2
        	 Percutaneous coronary intervention (PCI) or angioplasty that uses a
           catheter to clear a narrowed or blocked artery.3



1
  Cardiac Catheterization,
https://www.heart.org/HEARTORG/Conditions/HeartAttack/SymptomsDiagnosisofHeartAttack/Cardiac-
Catheterization_UCM_451486_Article.jsp, Accessed February 11, 2014. 

2
  Nuclear Ventriculography, http://www.nlm.nih.gov/medlineplus/ency/article/003822.htm, Accessed March 7,

2014. 



VA Office of Inspector General                                                                               1
    Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


            Placement of small mesh tubes called stents that treat narrow or weak
             arteries and drug-eluting stents (DES) that release the medication and
             prevent blockages in the artery.4
            Insertion of pacemakers.5

To perform such procedures, CCL team members receive training in procedures,
radiation safety, medications, moderate sedation, and other specialized aspects of
cardiology.6

In 2011, Veterans Health Administration (VHA) had 76 CCLs that collectively performed
procedures on 42,157 patients. As part of a national quality initiative begun more than a
decade ago, VHA created a national CCL data repository called the Clinical
Assessment Reporting and Tracking – Catheterization Laboratory (CART-CL) program
that integrated software for data entry, reporting, data flow, and electronic health record
(EHR) interface.7

The facility’s CCL operates on business days, typically begins procedures at 9:00 a.m.,
and finishes by late afternoon. A Medical Director and staff, including residents and
fellows affiliated with the University, provide the physician support for the facility’s CCL.
The facility also employs two full-time registered nurses (RNs) and two full-time
technicians for its CCL. Patients with complications, urgent needs, or those that require
cardiac catheterizations during non-business hours are sent to the University’s CCL,
located across the street from the facility.

VHA has not published a standard of care or staffing requirements for CCLs, and non-
VHA professional articles and statements offer limited guidance. For example, the
American College of Cardiology Foundation Task Force on Expert Consensus stated in
2012, “The type and number of nursing personnel required in the catheterization
laboratory depend on the laboratory caseload and types of procedures performed.”
Another professional organization, the Society of Invasive Cardiovascular Professionals
(SICP), published the 2010 Revised Position Statement – Staffing in the Cardiac
Catheterization and EP Lab, which states:

         There are three primary roles of the cardiovascular invasive specialist
         [CCL staff]: hemodynamic monitoring/documenting, circulating, and

3
  Cardiac Catheterization,
https://www.heart.org/HEARTORG/Conditions/HeartAttack/SymptomsDiagnosisofHeartAttack/Cardiac-
Catheterization_UCM_451486_Article.jsp, Accessed February 11, 2014. 

4
  National Heart, Lung, and Blood Institute, What Is a Stent? http://www.nhlbi.nih.gov/health/health-
topics/topics/stents/, Accessed November 20, 2013. 

5
  A pacemaker is a small device that sends electrical pulses to the heart to help the heart beat at a normal rate. 

http://www.nhlbi.nih.gov/health/health-topics/topics/pace/, Accessed February 11, 2014. 

6
  2012 American College of Cardiology Foundation/Society for Cardiovascular Angiography and Interventions

Expert Consensus Document on Cardiac Catheterization Laboratory Standards Update. J Am Coll Card. 2012; 

59 (24): 2224-2305. 

7
  The VA Cardiovascular Assessment, Reporting, and Tracking System for Cath Labs, presentation by John S.

Rumsfeld, MD PhD, Clinical Director, CART-CL, Denver VA Medical Center,

http://www.hsrd.research.va.gov/for_researchers/cyber_seminars/archives/vci-041707.pdf. 



VA Office of Inspector General                                                                                         2
    Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


         scrubbing…. For diagnostic or interventional procedures staffed by only
         one physician, at least three non-physician personnel should be present.
         When there is more than one physician scrubbed for the procedure, a
         minimum of two non-physician personnel are recommended for
         monitoring/documentation and circulating for the procedure. For unstable
         patients, or complex interventional procedures involving multiple
         technologies, additional staffing may be needed.8

Allegations. VA OIG’s Hotline Division received several general allegations in
April 2013, followed by more specific information in July. The complainant(s) cited
several examples to support that CCL patient emergencies were mismanaged:

    	 The death of a patient (Patient 1) who did not have an urgent cardiac
       catheterization because the nurse manager (NM) did not ensure sufficient
       nursing staff to perform the catheterization and facility administration delayed the
       patient’s transfer to the University.

    	 The case of a patient (Patient 2) who experienced a cardiac emergency in the
       CCL while a CCL RN worked alone (without a second RN); as the patient’s
       condition worsened, the NM, intensive care unit (ICU) RNs, and Anesthesia
       Service ignored CCL staff requests for help. Later, when the CCL staff called a
       code blue,9 help arrived promptly but the patient died in an ICU.

    	 Threats of an administrative action against a CCL RN who called the rapid
       response team10 for help during a CCL emergency.

In addition, CCL RN staffing was allegedly mismanaged because the NM:

    	 Did not consistently staff the CCL with two RNs as required by standards of care.

    	 Detailed insufficiently trained RNs to work in the CCL, including a newly selected
       CCL RN and a gastrointestinal (GI) laboratory RN who did not have CCL training
       or experience.

    	 Asked a pregnant RN to assist the CCL and risked exposing her to radiation.

    	 Ignored requests for additional nursing staff resulting in CCL procedures often
       being performed with only one RN.



8
  http://www.sicp.com/content/revised-position-statement-%E2%80%93-staffing-cardiac-catheterization-and-ep-lab. 

9
  A Code Blue is an alert for the Medical Emergency Response Team to respond to all cardiopulmonary arrest 

medical emergencies. VAMHCS Policy Memorandum 512-ll/ECOS-036, Medical Emergency Response Team, 

August 2011. 

10
   A rapid response team is a group of health care providers who respond quickly to assess and treat patients who are 

unstable or show signs of clinical distress, deterioration, or change. http://journals.lww.com/anesthesia-
analgesia/pages/articleviewer.aspx?year=2010&issue=09000&article=00015&type=abstract. Accessed 

February 11, 2014. 



VA Office of Inspector General                                                                                      3
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD



                            Scope and Methodology 

We conducted a site visit July 29–31, 2013. We reviewed industry standards related to
CCLs. We reviewed VHA and local policies; committee minutes; RN training records;
data from CART-CL; Patient Advocate Tracking System; and other relevant documents.
We also reviewed the EHRs of selected patients treated in the facility’s CCL during the
timeframe of the allegations, including March 14, 2011–March 8, 2013.

We interviewed the facility’s Director; Chief of Staff; Chief of Medicine Clinical Center;
CCL physicians, RNs, NM, and technicians; RNs from non-CCL areas who provided
coverage in the CCL; and other clinical, administrative, and quality management staff
with knowledge relevant to the allegations. We also interviewed VHA’s Cardiology
Nurse Consultant for Patient Care Service and National Program Director for
Cardiology.

Additional allegations related to retaliation issues and resource allocation were outside
OHI’s purview and not reviewed.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                  4
     Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD



                                      Inspection Results 

Issue 1: Mismanaged CCL Patient Emergencies

Death of Patient 1. We did not substantiate that Patient 1 died because CCL staffing
was insufficient to perform an urgent case and leadership delayed transferring the
patient to the University.

Patient 1 was an elderly veteran who came to the facility early one morning in
February 2013 for a scheduled carotid endarterectomy.11 Shortly after arriving, he
suffered a cardiac arrest.12 A code blue was called, and the patient was intubated,
shocked, and given chest compressions before transfer to the ICU around 8:00 a.m. At
10:02 a.m., the cardiology fellow documented the following in the patient’s EHR.

         After the code, the patient was barely responsive with sluggish pupils and
         poor response to pain. […] The decision was made to hold off on a cardiac
         catheterization given poor neurologic response and no significant ST
         segment depressions or elevations on EKG [electrocardiogram].

The patient continued to decompensate and experienced other complications. Later in
the morning, an ICU physician noted the following in the patient’s EHR.

         Given his outpatient vfib [ventricular fibrillation]13 arrest, we secured a bed
         in the Shock-Trauma Center for initiation of therapeutic hypothermia.
         However, due to hemodynamic instability, the patient was deemed too
         unstable for transfer. His family was present throughout the entire
         morning and after careful consideration and discussion, his three
         daughters made the decision not to escalate care and to change his code
         status to DNR.... Throughout the morning, despite maximal pharmacologic
         hemodynamic support, the patient's blood pressure continued to drop....
         He eventually passed and was pronounced dead by me and the ICU
         house staff at 11:24 a.m.…

When interviewed, the cardiology fellow told us that he remembered Patient 1’s case
very well. He recalled that because the event happened so early in the morning, he
contacted the lead cardiologist to initiate plans to transfer the patient to the University’s
CCL. However, because the patient’s status was changing, the lead cardiologist
recommended that they “not rush” the patient to a CCL. The cardiology fellow said that

11
   A carotid endarterectomy is a same day surgery that reduces the risk of stroke by removing fatty build up inside a
large artery in the neck. http://www.nhlbi.nih.gov/health/health-topics/topics/carend/, Accessed February 11, 2014.
12
   Cardiac arrest is a sudden loss of heart function.
https://www.heart.org/HEARTORG/Conditions/More/CardiacArrest/About-Cardiac-
Arrest_UCM_307905_Article.jsp, Accessed February 11, 2014. 

13
   The American Heart Association describes ventricular fibrillation as “when the heart's lower chambers suddenly 

start beating chaotically and don't pump blood.” 

https://www.heart.org/HEARTORG/Conditions/More/CardiacArrest/About-Cardiac-
Arrest_UCM_307905_Article.jsp


VA Office of Inspector General                                                                                      5
     Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


he likely called the facility’s CCL to check the schedule and staffing; although, he “did
not expect the [facility’s] CCL to be up and ready” before 9:00 a.m. Ultimately, they
decided not to perform an urgent catheterization based upon the patient’s unstable
status and not because of administrative decisions or CCL staffing.

Case of Patient 2. We did not substantiate that NM, ICU RNs, and Anesthesia Service
ignored CCL staff requests for help during a cardiac emergency.

Patient 2 was an elderly veteran who was admitted to the facility for exacerbation of
chronic obstructive pulmonary disease in August 2012. At admission, the patient said
he had been without medications for about 2 weeks and had thoughts of suicide.
Clinicians noted that he had several diagnoses, including high blood pressure,
congestive heart failure, bilateral pleural effusions,14 and a possible myocardial
infarction.15    Cardiologists recommended that the patient undergo a cardiac
catheterization.

The patient’s EHR shows that on hospital day 6 at 12:18 p.m., three physicians, one
RN, and two technicians initiated CCL procedures for left heart catheterization, coronary
angiography, and PCI. However, EHR documentation reflects that the patient became
agitated during the procedure and required intubation and a higher level of sedation.
The CART-CL report vital-signs record shows that the patient’s heart rate and blood
pressure began to increase around 2:51 p.m. and that an anesthesiologist arrived to the
room at 3:40 p.m. The CART-CL report also showed that the patient developed a
potentially fatal rapid heartbeat and that staff administered three defibrillator shocks
between 3:53–4:08 p.m. in an effort to stabilize him. Subsequent CART-CL records
show that CCL staff placed two left anterior descending coronary artery stents before
transferring the patient to the cardiac ICU at 5:46 p.m.

The patient’s EHR shows that while in the ICU, the patient was on a ventilator and staff
continued to manage his lung and cardiac conditions. According to the EHR, the patient
began breathing on his own after several days and was transferred from the ICU to an
acute care unit on hospital day 14. At this time, a physician noted in the EHR that the
patient understood that his illness was serious and said that he “did not want CPR
[cardio-pulmonary resuscitation], intubation, or defibrillation if his heart were to stop.”
On hospital day 16, the patient died.

We did not substantiate the allegation that the NM, ICU, or Anesthesia Service did not
respond to CCL staff requests for help and that help did not arrive until the CCL staff
called a code blue. While a cardiac ICU RN noted in the patient’s EHR that a code blue
was called during the procedure, there is no other documented EHR reference to a
code blue or request for help. Further, the CART-CL record does not mention requests
for help or a code blue call, and the facility had no post-code blue evaluation, incident
report, or close-call report related to this case. Staff we interviewed did not recall the

14
   Pleural effusion refers to fluid in the lung.
http://www.medicinenet.com/script/main/art.asp?articlekey=114975&pf=3&page=1, Accessed March 20, 2014.
15
   Myocardial infarction is also known as a “heart attack” and refers to death of the heart muscle.
http://www.webmd.com/heart-disease/understanding-heart-attack-basics Accessed March 20, 2014.


VA Office of Inspector General                                                                           6
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


specific circumstances of Patient 2’s case but acknowledged that they sometimes
encountered delays in response for code blue and anesthesia assistance. In contrast,
they reported that the NM and ICU staff generally responded timely to CCL staff’s
requests for help.

Threats for Calling Rapid Response Team. We substantiated this allegation; CCL
nursing staff reported that after one incident, nursing leaders threatened future
administrative action should the CCL staff call the rapid response team for help. Facility
leaders told us that, according to local policy, the rapid response team is limited to
responding to inpatient situations only. Since the CCL is an outpatient clinic, CCL staff
were directed to call a code blue for emergencies.

We conducted a general review of patient-safety related reports and other documents to
further evaluate the oversight and management of the CCL. We did not find evidence to
indicate improper administrative interventions. Since 2010, one CCL-related patient
death has occurred for which the facility conducted several thorough reviews, including
a code blue evaluation. The Invasive Procedure Committee regularly reviews CCL
procedures and looks for adverse events. To date, there have been no circumstances
to warrant further investigation or action nor have there been complaints registered
through the Patient Advocate Tracking System.

Issue 2: CCL RN Staffing

Two RN Requirement. We did not substantiate the allegation that the facility did not
follow “standards of care” regarding CCL staffing policies since there are no definitive
national or VHA standards for minimal staffing of the CCL. However, we found that
prior to April 2013, staffing did not consistently meet VHA staffing directives for CCL
procedures involving moderate sedation.

The facility’s CCL full-time staff included two RNs and two technicians. When one RN
was absent, the NM would sometimes assign an RN from an ICU or GI clinic to assist in
the CCL. On occasion, only one RN was on duty during procedures.

At the time of our review, VHA had not published standards of care or staffing
requirements for CCLs. VHA’s Cardiology Nurse Consultant for Patient Care Services
and the National Program Director for Cardiology told us that staffing depends on the
individual facility, its purpose, clinicians, and procedures offered. They expect minimum
CCL staffing to include a physician, an RN, and a technician. However, they stated that
a second RN is advisable in CCL cases that are complicated or require moderate
sedation.

The facility’s moderate sedation policy mirrored the VHA moderate sedation directive
and states, “Healthcare providers who are granted privileges to administer…and
monitor patients during moderate sedation/analgesia can be a licensed registered nurse
or advanced practice nurse…. During the [moderate sedation] procedure the [RN] will
continually monitor the patient. This individual will not have any other responsibilities
that could interfere with continual monitoring of the patient.”



VA Office of Inspector General                                                                  7
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


We reviewed 10 cases (other than the two previously discussed) named in the
allegation as problematic. In seven of these cases, the records showed that one RN,
working alone with the physicians and technicians, provided moderate sedation
medications and monitored the patients. Without a second RN, the RN would have to
stop monitoring the patient to carry out orders for the administration of other
medications, including intravenous medications.

Table 1 in Appendix A summarizes the cases, including procedures performed, total
number of CCL staff present, and the patients’ outcomes.

In mid-April 2013, the facility’s CCL Medical Director implemented a standard requiring
two RNs be present during all CCL procedures. To meet the new two-RN staffing
requirement for all CCL procedures, NMs sought RN volunteers to provide CCL
coverage when needed. Further, the CCL NMs and Medical Director recognized the
need for and planned refresher training for those RNs who were not comfortable with
some CCL functionality because they did not regularly perform duties in the CCL.

CCL RN Training and Experience. We did not substantiate that the NM detailed
insufficiently trained and/or inexperienced nurses to assist in the CCL.

In the allegation, the complainant identified instances involving three different patients in
which a newly selected RN worked in the CCL without sufficient training, orientation,
and experience. We reviewed each case and found no evidence of provider-perceived
problems or documented patient complications related to nursing care. In each case,
one or two other RNs were present in the CCL, each with varied levels of experience.
Training records indicated that the new CCL staff RNs received training and orientation
commensurate with expected CCL duties.

We reviewed the training and competency folders for the ICU and GI laboratory nursing
staff who were assigned intermittently to the CCL and found that each RN had
acceptable training, including training for the monitoring of patients receiving moderate
sedation, as well as certification in advanced cardiac life support. In addition, most staff
members who were assigned intermittently to the CCL told us that they believed that
they had adequate training and did not feel that patient safety was jeopardized.

The allegation included a statement that the NM sent one GI laboratory RN with no
facility-specific CCL experience to assist in the CCL; however, this RN described having
extensive prior CCL and cardiac surgery experience in a non-VA hospital.

Pregnant RN Detailed to the CCL. We did not substantiate that a pregnant RN who was
asked by the CCL NM to work in the CCL would have been in danger from radiation had
she been pulled to the CCL.

We confirmed that the NM asked a pregnant ICU RN to work one case in the CCL.
However, the RN indicated that, although she was asked, she did not work in the CCL
at any point during her pregnancy. Additionally, according to the National Center for
Biotechnology Information’s PubMed website, “Current data do not suggest a significant
increased risk to the fetus of pregnant women in the cardiac catheterization laboratory


VA Office of Inspector General                                                                  8
     Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


and thus do not justify precluding pregnant [individuals] from performing procedures in
the cardiac catheterization laboratory. However, radiation exposure among pregnant
physicians should be properly monitored and adequate radiation safety measures are
still warranted.”16 The NM stated that the pregnant RN would have been provided
radiation protective wear and would not have been required to stay.

NM Response to Requests for Additional CCL Nursing Staff. We did not substantiate
that the CCL NM ignored requests for additional nursing staff resulting in CCL
procedures often being performed with only one RN.

The majority of the facility’s CCL cases were considered low risk procedures, and
according to the facility’s CCL medical director, an average patient case took about
2½ hours to complete. As described above, the CCL NM arranged additional nursing
help for cases by authorizing overtime or assigning RNs from ICUs, the GI lab, or other
specialized areas, when possible. However, staff we interviewed told us that there were
times when, for staffing reasons, the NMs of ICU and other areas could not allow RNs
to be reassigned to the CCL upon request by the CCL’s NM.

Other Challenges with CCL Staffing. The facility’s leadership had other challenges with
CCL staffing. For example, the facility’s CART-CL reports for the past 3 fiscal years
show an average workload volume of approximately one patient per workday—less than
half of VHA’s nationally reported average.              Between October 1, 2012 and
April 15, 2013 (before the requirement for two RNs began), 27 workdays (20 percent)
had no CCL patient cases or activities. Following the two-RN requirement, from April 16
through June 26, 2013, 19 workdays (38 percent) had no CCL patient cases. Although
dedicated CCL RNs have other duties related to consults, equipment, and supply
management, NMs detailed the CCL staff members to work in other areas, such as the
GI Laboratory on the days without CCL cases. According to staff we interviewed, these
details were a significant cause of staff dissatisfaction.

Recognizing the declining CCL workload over recent years, facility managers and
leaders reported that they evaluated other options, including closing the CCL and using
fee-based CCL services. They found that keeping the facility’s CCL open was a service
they felt was important to maintain for the veterans and believed it to be cost-
advantageous in comparison with sending patients to the University’s CCL.

Issue 3: Other Concerns Regarding Response to CCL Emergencies

Incidental to our inspection, we found that staff were unclear about the roles of the code
blue and rapid response teams, as well as the process for obtaining anesthesiologist
assistance in the event of an emergency in the CCL.

CCL providers told us that they usually are able to detect the early signs of a
decompensating patient and rarely need a full code blue team response. Instead, they
usually need an anesthesiologist to manage the patient’s airway and sedation level.

16
  SCAI consensus document on occupational radiation exposure to the pregnant cardiologist and technical
personnel, http://www.ncbi.nlm.nih.gov/pubmed/21061249, Accessed March 7, 2014.


VA Office of Inspector General                                                                            9
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


Therefore, the CCL providers have often instructed the CCL staff to call Anesthesia
Service directly to request assistance. However, the Chief of Anesthesia Service told
us that he has discouraged direct calls to Anesthesia Service and expects that facility
staff call a code blue or the rapid response team instead. Facility leaders have advised
CCL and other outpatient staff to call a code blue for emergencies because facility
policy limits the rapid response team to inpatient situations, while the CCL is considered
an outpatient unit.

                                     Conclusions 

We did not substantiate that Patient 1 died because CCL staffing was insufficient to
perform an urgent case and leadership delayed transferring the patient to the University.
According to the EHR and the cardiology fellow’s report, the decision to not perform a
cardiac catheterization on Patient 1 was based on the patient’s medical status and no
other reasons. We also did not substantiate the allegation that help was requested for
Patient 2 but did not arrive until the CCL staff called a code blue. Medical and
administrative records had insufficient documentation to support that help was either
requested or delayed.

We did substantiate that after one incident, nursing leaders threatened future
administrative action should the CCL staff call the rapid response team for help. By
local policy, the rapid response team is limited to responding to inpatient situations only,
and because CCL is an outpatient clinic, staff should call a code blue for emergencies.

VHA has not published a standard of care or staffing requirements for CCLs; therefore,
we did not substantiate that the facility did not follow “standard of care requirements.”
Although the facility did not consistently meet VHA’s directive for two RNs to be present
during CCL procedures involving moderate sedation, changes implemented in
April 2013 required two RNs for all CCL procedures. We did not substantiate that the
CCL NM mismanaged or ignored requests for additional staff coverage in the CCL. The
facility acknowledged ongoing efforts to evaluate the cost-benefit of CCL in-house
operations because of low volume.

In addition to the allegations in the complaint, our inspection revealed that some facility
staff were unclear regarding the policy and roles of the code blue and rapid response
teams as well as accessibility of anesthesiologists. Some staff were also unaware that
anesthesiologists are part of the code blue team but not the rapid response team.

                                 Recommendations 

Recommendation 1. We recommended that the System Director ensure that nurse
staffing is appropriate for the volume and types of procedures performed in the cardiac
catheterization laboratory and that the requisite nurse competencies are maintained.

Recommendation 2. We recommended that the System Director ensure that the
policies and procedures regarding the rapid response team, code blue team, and



VA Office of Inspector General                                                                 10
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


Anesthesia Services are updated as needed to reflect desired practices for managing
cardiac catheterization laboratory emergencies.

Recommendation 3. We recommended that the System Director ensure that the staff
receive training on updated policies and procedures regarding the rapid response, code
blue team and Anesthesia Services.




VA Office of Inspector General                                                                 11
       Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD
                                                                                                                        Appendix A

                     Table 1. Alleged Insufficiently Staffed CCL Cases




                                                                               Technicians

                                                                                             Physicians
                                                                               Radiology



                                                                                                          Total CCL
                                                                                                          Staffing
                                                                                                                      24-hour outcome
Case




                                                                         RNs
                       Planned                                                                                         per physician’s
          Date        Procedures             Actual Procedures                                                              note
 a       6/6/11     Left heart          Left heart catheterization     1         2         2               5        “No complications”
                     catheterization      with ventriculography
                    Coronary            Coronary angiography
                     angiography         DES stent placement
 b       6/9/11     Left heart          Left heart catheterization     1         2         3               6         “currently stable”
                     catheterization     Coronary angiography                                                          after an allergic
                    Coronary            Intravascular ultrasound                                                    reaction to contrast
                     angiography         DES stent placement
 c      8/31/201    Left heart          Left Heart                     1         2         2               5            “no events
            1        catheterization      Catheterization                                                                 overnight”
                    Coronary            Coronary Angiography
                     angiography         DES stent placement
 d       12/6/11    Left heart          Left heart catheterization     1         2         2               5         “[…] some groin
                     catheterization      with ventriculography                                                       pain […] otherwise
                    Coronary            Coronary angiography                                                           doing well.”
                     angiography
 e       8/28/12    Left heart            Left heart catheterization   1         2         2               5        “no complications”
                     catheterization       Coronary angiography
                    Coronary              Iliac angiography
                     angiography           Vascular occlusive
                    PCI                    device placement
                                           Stent placement
 f      10/15/12    Left heart            Left heart catheterization   1         2         2               5        “Procedure without
                     catheterization        with ventriculography                                                      any complication”
                    Coronary              Coronary angiography
                     angiography           Internal mammary artery
                    Bypass graft           bypass graft
                     angiography            angiography
                                           Saphenous vein graft
                                            angiography
                                           Pacemaker insertion
                                           DES stent placement
 g       1/22/13    Left heart            Left heart catheterization   2         0         3               5           “Successful”
                     catheterization       Coronary angiography                                                      (discharged same
                    Left ventricular      Iliac angiography                                                                day)
                     angiography           Vascular occlusive
                    Coronary               device placement
                     angiography           DES stent placement
 h       1/24/13    Left heart            Left heart catheterization   2         0         3               5          “Cath revealed
                     catheterization       Coronary Angiography                                                      minimal [disease]”
                    Left ventricular      Iliac angiography                                                          (discharged the
                     angiography           Vascular occlusive                                                            same day)
                    Coronary               device placement
                     angiography




VA Office of Inspector General                                                                                                    12
         Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD



                       Table 1. Alleged Insufficiently Staffed CCL Cases




                                                                                   Technicians

                                                                                                 Physicians
                                                                                   Radiology



                                                                                                              Total CCL
                                                                                                              Staffing
                                                                                                                          24-hour outcome
 Case




                                                                             RNs
                         Planned                                                                                           per physician’s
            Date        Procedures             Actual Procedures                                                                 note
     i     3/8/13     Left heart          Left heart catheterization       1         1         2               4         “Doing well post-
                       catheterization     Right heart                                                                      procedure”
                      Coronary              catheterization
                       angiography         Vascular occlusive
                                             device placement
                                           Iliac17 angiography
                                           DES stent placement
                                           Coronary angiography
     j         Right heart
           6/27/13                         Right heart                      2         2         2               6              “stable”
                catheterization             catheterization                                                                (discharged the
               Pericardio­                Interpretation of cardiac                                                          next day)
                centesis18                  output measurements
Source: VA OIG




17
   The iliac is an artery that originates from the aorta (a large and major blood vessel coming from the heart).
http://www.healthline.com/human-body-maps/common-iliac-artery, Accessed March 8, 2014.
18
   “Pericardiocentesis is a procedure that uses a needle to remove fluid from the pericardial sac, the tissue that
surrounds the heart.” http://www.nlm.nih.gov/medlineplus/ency/article/003872.htm, Accessed March 8, 2014.


VA Office of Inspector General                                                                                                       13
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD
                                                                                      Appendix B
                            VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


       Date: June 27, 2014

      From: Director, VA Capital Health Care Network (10N5)

   Subject: Healthcare Inspection – Alleged Mismanagement in the
            Cardiac Catheterization Laboratory, VA Maryland HCS,
            Baltimore, Maryland

         To: Director, Baltimore Office of Healthcare Inspections (54BA)

               Director, Management Review Service (VHA 10AR MRS OIG
               Hotline)

               1. I have reviewed the draft report and concur with the VA
               Maryland HCS’ planned actions for improvement.

               2. If you have any questions please contact Jeffrey Lee, VISN 5
               Quality Management Officer at 410-691-7816.




VA Office of Inspector General                                                                 14
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD
                                                                                      Appendix C
                         System Director Comments


               Department of
               Veterans Affairs                                   Memorandum


   Date:       June 11, 2014

   From:       Director, VA Maryland Health Care System, Baltimore, MD
               (512)

   Subject: Healthcare Inspection – Alleged Mismanagement in the
            Cardiac Catheterization Laboratory, VA Maryland HCS,
            Baltimore, Maryland

       To:     Director, VA Capital Health Care Network (10N5)



               1. I have reviewed the draft report and concur with the OIG
               Recommendations.

               2. Thank you for the opportunity to review the draft report.
               Our corrective actions have been established with planned
               completion dates as detailed in the attached report.

               3. If you have any further questions, please contact me at
               410-605-7016.




                       Dennis H. Smith




VA Office of Inspector General                                                                 15
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the System Director ensures that nurse
staffing is appropriate for the volume and types of procedures performed in the cardiac
catheterization laboratory and that the requisite nurse competencies are maintained.

Concur: Yes

Target date for completion: Completed

Facility response: The Cardiac Catheterization Laboratory continues to adhere to the
current practice of utilizing two Registered Nurses for all procedures within the
department. Nursing staff that assist, to cover absences, in this department from other
areas are competent to practice in the Cardiac Catheterization Laboratory. These
nursing staff successfully completed a Cardiac Catheterization competency prior to
working in the Cardiac Catheterization Laboratory and will successfully complete a
yearly competency in order to practice in this area.

Recommendation 2. We recommended that the System Director ensures that the
policies and procedures regarding the rapid response team, code blue team, and
Anesthesia Services are updated as needed to reflect desired practices for managing
cardiac catheterization laboratory emergencies.

Concur: Yes

Target date for completion: July 31, 2014

Facility response: The policy for the Rapid Response Team and the Code Blue Team is
being combined into the VAMHCS Policy “Medical Emergency Response Teams.” The
Medical Emergency Response Team responds to both a Rapid Response and a Code
Blue. The Anesthesia Service is a member of the Medical Emergency Response Team
at Baltimore.

Recommendation 3. We recommended that the System Director ensures that the staff
receive training on updated policies and procedures regarding the rapid response, code
blue team and Anesthesia Services.

Concur: Yes

Target date for completion: July 31, 2014

Facility response: The VAMHCS Policy “Medical Emergency Response Teams” will be
published in July 2014. The plan to educate VAMHCS staff on this new policy is:


VA Office of Inspector General                                                                 16
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD


       a. 	Each Cardiac Catheterization Lab staff member will review and initial the
            policy.
       b. The roles and responsibilities contained within the policy will be discussed at
            the Staff Meeting scheduled in July and August 2014.
       c. 	 Draft policy will be presented in the Executive Committee of the Medical Staff
            on June 27, 2014 by the Acting Director, Center for Performance.




VA Office of Inspector General                                                                 17
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD
                                                                                      Appendix D

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Melanie Oppat, MEd, LDN, Team Leader
                         Donald Braman, RN
                         Matthew Frazier, MPH, MBA
                         Kathy Gudgell, RN, JD
                         Julie Kroviak, MD
                         Carol Torczon, ACNP

                         George Wesley, MD 





VA Office of Inspector General                                                                 18
   Alleged Mismanagement in the Cardiac Catheterization Laboratory, VA Maryland HCS, Baltimore, MD
                                                                                      Appendix E

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Capitol Health Care Network (10N5)
Director, VA Maryland Health Care System (512/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Benjamin L. Cardin, Barbara A. Mikulski
U.S. House of Representatives: Elijah Cummings, John Delaney; Donna F. Edwards,
 Andy Harris, Steny H. Hoyer, John P. Sarbanes, Dutch Ruppersberger, Chris Van
 Hollen



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                 19
